                                                            NATIONAL SCIENCE FOUNDATION
                                                             OFFICE OF INSPECTOR GENERAL
                                                               OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

I((
  Case Number: 1-05-01-0003
                                                                                    11         Page 1 of 1



           OIG was notified by NSF's Division of Financial Management (DFM).that subject' had
           apparently misused her government travel credit card on     worth of rental car charges that
           did not appear to coincide with official travel.

           A review of Subject's                     government travel credit card statement transaction
           reports, revealed $        worth of charges to                      for the period October 7fi thru
           December 7&,2004. A review of Subject's travel records revealed that Subject was not on
           official travel during the time of the questionable charges. Subject's government travel credit
           card statement also revealed that as of January 4,2005, Subject's account was $            past
           due.

           During an interview by the OIG, Subject admitted to having misused her government travel
           credit card for car rental charges that were not associated with official travel.

                              cancelled Subject's government travel card and NSF subsequently initiated
           salary offset to payoff the unpaid balance.

           OIG's referral to NSF resulted in Subject receiving a five day suspension from duty and pa#.

           Accordingly, this case is closed.




                                                                                                     I




           1
           2
            The five day suspension is effective for the period                    Note:
           a weekend.



 NSF OIG Form 2 (1 1/02)
